0 *j7860
3fn ®fje

Supreme Court of tfje iJntteb States!
In Re MARRIAGE OF RYAL W. RICHARDS AND ALICIA MARIE
RICHARDS
ALICIA MARIE RICHARDS
Petitioner,
V.
RYAL W. RICHARDS

FILED
APR 1 7 2021

Respondent.

°nPRlMEFCOURTLURSK

ON PETITION FOR A WRIT OF CERTIORARI TO THE
CALIFORNIA FOURTH DISTRICT COURT OF APPEAL
DIVISON THREE

PETITION FOR WRIT OF CERTIORARI

Respectfully submitted 4/15/21

/V

/I

/s/ Alicia Marie Richards
351 Catalina Drive
Newport Beach, CA 92663
(949)813-6138
Richardsalicia007@gmail.com
Petitioner in Forma Pauperis

rEmm
APR 7 D 2021

•a

QUESTIONS PRESENTED FOR REVIEW (Rule 14.1(a))
In Logan v. Zimmerman, 455 U.S. at 436, 102 S.Ct. at 1158 this Court held
that “The state, . . had destroyed the plaintiffs property interest... by failing to
convene a hearing within the time mandated by the same statute that had created
the interest. . ..” In Green v. Lindsay 456 U.S. 444 (1982), ("Green") this Court
stated "By failing to afford adequate notice of the proceedings before issuing final
orders of eviction, the State deprived them of property without due process of law
required by the Fourteenth Amendment." This Court went on to state that eviction
is a "significant interest in property, and indeed, of the right to continued residence
..." And that the "sufficiency of the notice must be tested with reference to its
ability to inform" of the pendency of proceedings that affect their interests. Pp. 450451. Green v. Lindsey, supra, 456 US 444, holding that those orders would be
in violation of due process and equal protection of the law. In Dusenbery v. United
States, 534 U.S. 161 (2002), the court stated that "the Due Process Clause of the
Fifth Amendment prohibits the United States, as the Due Process Clause of the
Fourteenth Amendment prohibits the States, from depriving any person without
"due process of law." This Court "determined that individual whose property
interests are at stake are entitled to 'notice and an opportunity to be heard.'" Citing
United States v. James Daniel Good Real Property, 510 U.S. 43,48 (1993).
Is the statutory law taking of a person’s property arbitrary, too broad and
discriminatory under Dusenbery v. United States, 534 U.S. 161 (2002) and void
under Logan u. Zimmerman, 455 U.S. at 436, 102 S.Ct at 1158?

u

V

United States Courts entered incompatible decisions on the application of
California enforcement statutes under Civil Code of Procedure § 128(a)(4) and
Family Law Code §§ 290 and 291. It has used California Statutes in a way that
violates the California Constitution and calls for an exercise of this Court’s
supervisory power to settle: is application of Civil Code of Procedure § 128 and
Family Law Codes §§ 290 and 291 proper without affording due process and equal
protection of the law? And any sanctions against a pro se litigant who requested a
family law code §2030 hearing to ensure equal rights and to have her claims
adjudicated under family law code §2120-2129 is proper under Civil Code of
Procedure Section 128.5 in light of Logan v. Zimmerman, 455 U.S. at 436, 102 S.Ct.
at 1158?
This Court recognizes that it is a fundamental right to notice and a right to
be heard at a meaningful time and place within the meaning of the Due Process
Clause to the Fourteenth Amendment before being deprived of a property interest,
but it is declined to arbitrary government action in California courts by application
of the controversial, broadly defined and unrestrained statutory enforcement and
sanction laws; In this Court supervisory powers is to review and protect this
essential rights to all individuals, including Petitioner to this Court.

m

LIST OF PARTIES
PETITIONER
Alicia M. Richards (respondent/appellant below)
Proceeding Pro Se
351 Catalina Drive
Newport Beach, CA 92663
TELE: (949)813-6138
EMAIL: Richardsalicia007@gmail.com
RESPONDENT
Ryal W. Richards (petitioner/respondent below)
do Kevin E. Robinson, Attorney ofRecord SBN
88726 Law Offices of Kevin E. Robinson
970 W. 17th street, Suite D
Santa Ana, CA 92706
TELE: (714) 245-0210
EMAIL: robinsonlawoffice@vahoo.com
RELATED CASES
Case No. S265542
California Supreme Court (denied review August
12, 2020) 350 McAllister Street, Room 1295
San Francisco, CA 94102-4797 tel. 415-865-7000
(Petition denied 11/18/20)
Case No. G057803
Fourth District Court ofAppeal-Div.3 (Opinion issued October 6, 2020)
601 W. Santa Ana Blvd.
Santa Ana, CA92701 tel. 714-571-2600
Written by the Honorable Justice Kathleen E O'Leary Affirmed in Full
(Rehearing denied 10/27/2020)
Case No. 15d009634
Orange County Superior Court
(Orders dated 04/19/19 and 04/26/19)
341 The City Drive, Orange, CA 92868
The Honorable Andre De La Cruz, Judge Dept. W10/L62

IV

TABLE OF CONTENTS
PETITION FOR WRIT OF CERTIORARI

1

QUESTIONS PRESENTED FOR REVIEW

11

LIST OF PARTIES

in

RELATED CASES

IV

TABLE OF CONTENTS

.v

TABLE OF AUTHORIITES

vi

OPINION BELOW

1

JURISDICTIONAL STATEMENT

1

CONSTITUTIONAL AND SATUTORY

1

PROVISIONS INVOLVED

1

STATEMENT OF THE CASE AND FACTS

4

REASONS FOR GRANTING OF THE WRIT

11

ARGUMENT

15

Application of Civil Code of Procedure Section 128, 128.5 and Family
Law Code Sec. 290 and 291 are Too Broad and Arbitrarily Applied in
Violation of the Due Process Clause to the Fourteenth Amendment to the
United States Constitution and Should be Declared Unconstitutional......

18

CONLUSION

25

v

TABLE OF AUTHORITIES
Cases
American Surety Co. v. Baldwin 287 U.S 156 168 (1932)........................
22
Anderson Nat’l Bank u. Luckett, 321 U.S. 233, 244 (1944).....................
27
Arizona v. Fulminante (1991) 499 U.S. 279, 309-310, 111 S.Ct. 1246,
113 L.Ed. 2d.................................................................................................
5, 15
Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450.............
21
Blueberry Properties, LLC v. Chow (2014) 230 Cal.App.4th 1017, 1021,
179 Cal.Rptr. 3d 145..................................................................
18
Boddie v. Connecticut, 401 U.S.371,91 S.Ct. 780,
28 L.Ed.2d 113 (1971)...............................................................
12, 14, 23, 25, 27, 28
Chicago, B&QR.R. v. Chicago, 166 U.S. 266 (1987)...............
27
Coates v. City of Cincinnati, 402 U.S. 611, 616, (1971)...........
26
Dusenbery v. United States, 534 U.S. 161 (2002).....................
13, 15, 23
Fewel u. Fewel, (1943), 23 Cal.2d 431........................................
...... 5, 15
Gray u. Hall, 203 Cal. 306 (Cal. 1928).......................................
21
Green v. Lindsay 456 U.S. 444 (1982)........................................
8, 10, 11, 12, 16
Haygood v. Younger, 769 F.2d 1350 (9th Cir. 1985)................
............7, 16, 19
In re Marriage of Carlsson (2008) 163 Cal.App.4th 281,291..
16
In re Robert G. 31 Cal. 3d 437, 442 (1982)................................
15
Isbell v. County of Sonoma (1978) 21 Cal.3d 61.......................
11, 12, 14
Jordan v. Massachusetts, 225 U.S. 167, 176 (1912)................
27
Lamps Plus, Inc. v. Varela (2019) 139 S.CT. 1407 1417-1419
5, 15
Lindsey v. Normet, 405 U.S. 56 @ 67(1972)..............................
22
Logan v. Zimmerman, 455 U.S. at 436, 102 S.Ct. at 1158......
7, 13, 14, 17, 19, 23
Mullane u. Central Hannover Bank (1950) 339 U.S. 306, 313-315
[94 L.Ed. 865,872-874, 70 S.Ct. 652]........................................................
13, 16, 23
NAACP v. Button, 371 U.S. 415, 432-33 (1963)..........................................
26
Nickey v. Mississippi, 292 U.S. 393, 396 (1934).........................................
22
Osmond v. Spence (1972) 359 F. Supp. 124, 127........................................
12
Payne v. Superior Court, (1976) 17 Cal. 3d 908..........................................
11, 12
Sabariego v. Maverick (1988) 124 U.S. 261 [60 S. Ct. 343].......................
14, 20
Schnabel v. Superior Court 5 Cal.4th 704 (Cal. 1993)..............................
8
Seymore v. Oelrich(1909)156 Cal.782 (106 P.88]........................................
5
Sniadach v. Family Finance Corp., 395 U.S. 337, 89 S.CT. 1820,
23 L.ED.2d 349 (1969).................................................................................
12, 23
Snyder v. Massachusetts, 291 U.S. 97, 105 (1934);.................. :................
27
Sole Energy Co. v. Hodges (2005) 128 Cal.App.4th 199, 210....................
6
Southern Pac. Co. v. Railroad Com, 13 Cal.2d 125, 127-128 (Cal. 1939)
9

vi

Sterling v. Taylor, 40 Cal.4th 757 (Cal. 2007).................................................
Twining v. New Jersey, 211 U.S. 78, 101 (1908)..............................................
United States v. Harris, 106 U.S. 629...............................................................
United States u. James Daniel Good Real Property, 510 U.S. 43,48 (1993)
West v. Louisiana 194 U.S. 258, 263 (1904).....................................................

5
27

28
16
27

Statutes
42 U.S.C. § 1983.....................................................
Civ. Code, § 4800.10,subd. (a), eff. Jan. 1, 1993
Code of Civil Procedure §916..............................
Civil Code of Procedure §128...............................
Civil Code of Procedure 128.5.............................
Family Law Code § 2030.....................................
Family Law Code § 2120 through 2129.............
Family Law Code § 290........................................
Family Law Code § 291........................................

28
8
9
passim
passim
passim
passim
passim
passim

Rules
California Rules of Court, rule 5.440

21

Constitutional Provisions
California Constitution Art. I, § 21
First Amendment.............................
Fourteenth Amendment.................
US Constitution Amendment VIII.

22
26

passim
27

Vll

OPINION BELOW
The decision of the Court of Appeals, Fourth District, Division Three, Ryal
W. Richards v. Alicia Marie Richards, Court of Appeal Case No. G057803
affirming in full on October 6, 2020 is appended to this Petition. (Appendix A)
JURISDICTIONAL STATEMENT
Petitioner Alicia Marie Richards appealed the 4/19/19 and 4/26/19 orders
challenging the jurisdiction and the trial court's violation of her due process and
equal protection of the law rights on August 20, 2018. (Appendix B and C)
The California Court of Appeals, District Four, Division Three entered its
Opinion affirming the Trial Court orders on October 6, 2020. (Appendix A).
A timely petition for rehearing was denied 10/27/20. (Appendix D)
A timely petition for review was denied November 18, 2020. (Appendix E)
An automatic extension of time because of Covidl9 to file the petition for a
writ of certiorari was granted extending the deadline to file certiorari 150 days to
and including 4/18/21 and because that day lands on a Sunday, the deadline is
extended to Monday 4/19/21.(Appendix F)
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
Accordingly, this Petition is timely.
Petitioner, Alicia Marie Richards respectfully prays that a Writ of Certiorari
issue to review the trial court orders and the Opinion of the Court of Appeals,
Fourth Appellate District, Division Three. (Appendix A, B, and C).

1

CONSTITUTIONAL AND SATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the Constitution
“Clause says that “No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States.” “No State
shall “deny to any person within its jurisdiction the equal protection of the laws,
and the right to access to the courts.
Bill of Rights
All persons within the jurisdiction of the United States shall have the same
right to every State and Territory to the full and equal benefit of all laws and
proceedings for the security of persona and property.

Code of Civil Procedure §128
"(a) Every court shall have the power to do all the following:
... (4) To compel obedience to its judgments, orders, and process, and to the orders
of a judge out of court, in an action or proceeding pending therein."
Code of Civil Procedure §128.5
... "If, after notice and a reasonable opportunity to respond, the court issues an
order pursuant to subdivision (a), the court may, subject to the conditions stated
below, impose an appropriate sanction upon the party, the party's attorney, or both,
for an action or tactic described in subdivision (a). In determining what sections, if
any, should be ordered, the court shall consider whether a party seeking sanctions
has exercised due diligence.
(A) A motion for sanctions under this section shall be made separately from other
motions or requests and shall describe the specific alleged action or tactic,
made in bad faith, that is frivolous or solely intended to cause unnecessary
delay ..."
(B) If the alleged action or tactic is the making or opposing of a written motion
Family Law Code §290
“A judgment or order made or entered pursuant to this code may be enforced by the
court by execution, the appointment of a receiver, or contempt, or by any other order
as the court in its discretion determines from time to time to be necessary.”

2

Family Law Code §291

“(a) A money judgment or judgment for possession or sale of property that is made
or entered under this code, including a judgment for child, family, or spousal
support, is enforceable until paid in full or otherwise satisfied.
(b) A judgment described in this section is exempt from any requirement that a
judgment be renewed. Failure to renew a judgment described in this section has no
effect on the enforceability of the judgment.
(c) A judgment described in this section may be renewed pursuant to Article 2
(commencing with Section 683.110) of Chapter 3 of Division 1 of Title 9 of Part 2 of
the Code of Civil Procedure. An application for renewal of a judgment described in
this section, whether or not payable in installments, may be filed:
(1) If the judgment has not previously been renewed as to past due amounts, at any
time.
(2) If the judgment has previously been renewed, the amount of the judgment as
previously renewed and any past due amount that became due and payable after
the previous renewal may be renewed at any time after a period of at least five
years has elapsed from the time the judgment was previously renewed.
(d) In an action to enforce a judgment for child, family, or spousal support, the
defendant may raise, and the court may consider, the defense of laches only with
respect to any portion of the judgment that is owed to the state.
(e) Nothing in this section supersedes the law governing enforcement of a judgment
after the death of the judgment creditor or judgment debtor.
(0 On or before January 1, 2008, the Judicial Council shall develop self-help
materials that include: (1) a description of the remedies available for enforcement of
a judgment under this code, and (2) practical advice on how to avoid disputes
relating to the enforcement of a support obligation. The self-help materials shall be
made available to the public through the Judicial Council self-help Internet Web
site.
(g) As used in this section, “judgment” includes an order.”
Family Law Code §2030
"(a)(1) In a proceeding for dissolution of marriage, nullity of marriage, or legal
separation of the parties, and in any proceeding subsequent to entry of a related
judgment, the court shall ensure that each party has access to legal representation,
including access early in the proceedings, to preserve each party's rights ..."

3

STATEMENT OF THE CASE AND FACTS
This is a family law case. Petitioner is the respondent and defendant in the
lower court and was sued for divorce on or about November, 2015 by Ryal W.
Richards hereinafter “Ryal” in the County of Orange, Superior Court, Lamoreau
Justice Center located at 341 The City Drive, Orange, CA 92868. The Honorable
Judge Andre De la Cruz, presiding.
The parties entered into a hand written settlement agreement on March 2,
2017 regarding custody and June 16, 2017 regarding the family home and child
support and alimony. After Petitioner uncovered that the hand written settlement
agreement was entered into by mistake of fact and law, failure to disclose, perjury,
undue influence, fraud, and duress, Petitioner who was not represented by counsel
filed on September 13, 2017, a motion to vacate the settlement agreement pursuant
to family law codes §§ 2120 through 2129 and timely requested a family law code
§2030 hearing to be held before her hearing on her motion to vacate so she could be
equally represented and have the aid of counsel to ensure her rights were protected
to vacate the hand written settlement agreements based on family law code 2120
through 2129. The family law court ignored Petitioner’s family law code §2030
request, refusing its mandatory statutory duty to make the required findings within
the 15 day timeframe and instead forced Petitioner to proceed pro se in a specialized
area of law and denied Petitioner’s motion to vacate without allowing any of

4

Petitioner’s evidence to be considered1 denying Petitioner a fair hearing. The family
law court found unilateral mistake but stated it had no remedy and instead
influenced Petitioner to file her tort claims in the civil court on 4/17/182 in the civil
court. See Seymore v. Oelrich(1909)156 Cal.782 (106 P.88] overruled on other
grounds in Sterling v. Taylor, 40 Cal.4th 757 (Cal. 2007) [Held: Quoting from and
early decision of the United States Supreme Court stated: "The vital principle is
that he who by his language or conduct leads another to do what he would not
otherwise have done shall not subject such person to loss or injury by disappointing
the expectation upon which he acted. It involves fraud and falsehood, and the law
abhors both." (See 156 Cal.p.795)
Petitioner who was unfamiliar with family law and forced to proceed pro se
because the family law court refused to hold her timely requested family law code
sec. 2030 hearing denying her equal rights to be represented by counsel filed an
appeal on the family law court’s order denying Petitioner’s motion to vacate the
settlement agreements of March 2, 2017 and June 16, 2017 heard on 1/26/18 at 8:30
a.m.

1 See Arizona v. Fulminante (1991) 499 U.S. 279, 309-310, 11 1 S.Ct. 1246, 113 L.Ed.
2d
302. Also Lamps Plus, Inc. v.Varela (2019) 139 S.CT. 1407 1417-1419 [Structural
errors occur when a party's right to due process has been violated by denying them
a fair hearing.]See also Fewel v. Fewel, (1943) 23 C2d.431,434 [Re: Right to produce
evidence and cross examine adverse witnesses.]
2 The Civil Court stayed the tort litigation instead of remanding it back to the
family law court who had exclusive jurisdiction of Petitioner’s claims and Petitioner
was mislead by the family law court. Seymore v. Oelrich(19Q9)156 Cal.782 (106
P.88]

5

Unbeknownst to Petitioner later in the day on 1/26/18 at 1:30 p.m. after
Petitioner’s motion to vacate the stipulations, Ryal’s counsel submitted a typed
judgment unsigned by Petitioner giving Ryal and his attorney more than authorized
by law and in violation of Civ. Code of Procedure § 580 and fraud on the court and
was entered without the court addressing Petitioner’s objections filed on 12/20/18
and should be considered void. In Sole Energy Co. u. Hodges (2005) 128 Cal.App.4th
199, 210, a panel of the Fourth District, Division Three Court of Appeals explained:
"Having concluded the orders entering the defaults of defendants are void, we must
conclude the default judgment against defendants is also void. ""A void judgment
[or order] is, in legal effect, no judgment. By it no rights are divested. From it no
rights can be obtained. Being worthless in itself all proceedings founded upon it are
equally worthless.”
After finding out about the typed judgment, Petitioner who was
unrepresented by counsel filed a motion to vacate the typed [stipulated] judgment
that was unsigned by Petitioner on 2/7/18 because it gave Ryal and his attorney
more than authorized by law and not agreed to by Petitioner and was not “word for
word” as Judge Linda Miller ordered. The family law court stayed Petitioner’s
motion to vacate the typed [stipulated] judgment pending Petitioner’s appeal of the
order denying her motion to vacate the stipulations that were taken from a
nonappealable order.
While the appellate court was deciding Petitioner’s appeal on her motion to
vacate the stipulations without appellate jurisdiction, the family law court had

6

stayed Petitioner’s motion to vacate the typed judgment, and the civil court had
stayed Petitioner’s civil tort action filed against Ryal on 4/17/18, Ryal proceeded to
enforce the sale of the real property in the family law court and misleading the
court to obtain disbursement of the equity that is in dispute and in direct conflict
with public policy causing Petitioner irreparable injury by the loss of her
substantial property rights and continued residence of her home as well as being
sanctioned for exerting her rights and after the fact the family law court had
already violated Petitioner’s due process and equal protection of the law rights to
the Fourteenth Amendment when it denied her rights under the very statutes that
were enacted to protect her rights. See Haygood v. Younger, 769 F.2d 1350 (9th Cir.
1985) [Held: “where the injury is the product of the operation of state law,
regulation, or institutionalized practice, it is neither random or unauthorized, but
wholly predictable, authorized, and within the power of the state to control. In such
cases, the state may not take away the protected interest without a hearing in
advance of the injury.” (Underlining added) citing Supreme Court Logan v.
Zimmerman, 455 U.S. at 436, 102 S.Ct. at 1158. “The state, in Logan, had destroyed
the plaintiffs property interest in employment by failing to convene a hearing
within the time mandated by the same statute that had created the interest. The
Supreme Court noted that Logan was not challenging the commission’s error, but
was challenging the established state procedure itself which destroyed his rights
without giving him an opportunity to be heard.” Just as in this case, the state
destroyed Petitioner’s property interests and continued residence in her property by

7

failing to convene a hearing on her timely requested family law code §§ 2030
hearing within the time mandated and adjudicating her tort claims under family
law code sec. 2120 through 2129 by those same statute that established the state
procedure which destroyed her rights without giving her an opportunity to be heard
and all the appeals to take Richards’ property happened after the injury in violation
of Supreme Court precedent. (Id.) (Family Law Code §§ 2130 and 2120 through
2129) See also Schnabel v. Superior Court 5 Cal.4th 704 (Cal. 1993). The
California Supreme Court stated “The Legislature has recently declared: "It is the
policy of the State of California (1) to marshal, preserve, and protect community and
quasi community assets and liabilities that exist at the date of separation so as to
avoid dissipation of the community estate prior to distribution, (2) to ensure fair
and sufficient child and spousal support awards, and (3) to achieve a division of
community and quasi-community assets and liabilities upon the dissolution of
marriage as provided for under California law. [t] • • • [1] In order to promote this
public policy, a full and accurate disclosure of all assets and liabilities in which one
or both parties have or may have an interest must be made in the early stages of
the dissolution of marriage action, regardless of the characterization as community
or separate, together with a disclosure of all income and expenses of the parties."
(Civ. Code, § 4800.10,subd. (a), eff. Jan. 1, 1993.); See also Green v. Lindsay 456
U.S. 444 (1982) [Holding: orders would be in violation of due process and equal
protection of the law.]

8

For example, on November 9, 2018, the trial court scheduled an Order to
Show Cause re Sanctions at the request of Ryal’s attorney against Petitioner for
allegedly violating the July 10, 20183 order that was stayed pending appeal because
Petitioner filed a motion to deposit the listing agreement because the court clerk
refused to take it. See Civ. Code of Proc. §916. At that same hearing, on November
8, 2019, the court without any notice that it intended to do so evicted Petitioner and
her minor from her home, without notice, a hearing and an opportunity to oppose
with counsel and without balancing the equities knowing Ryal lacked standing to
request anything because he was in contempt of court by refusing to pay court
ordered child and spousal support and Petitioner’s tort claims were still pending in
the civil court causing Petitioner irreparable harm and injury by eviction, loss of
substantial property rights, and an unfair division of the community estate not to
mention extreme emotional distress by the threat of eviction and having her and
her children thrown out into the streets and unable to obtain adequate housing
because Ryal had ruined Petitioner’s credit which is one of Petitioner’s tort claims
pending against Ryal in civil court and was forced into bankruptcy to stop the
unlawful taking of her property without due process and equal protection of the law.
The family law court’s sua sponte order of eviction was completely unsupported. See
Southern Pac. Co. v. Railroad Com, 13 Cal.2d 125, 127-128 (Cal. 1939) [“. .. not only
was there no evidence to support the so-called ‘findings’ to the effect have not been
3 The July 10, 2018 Order was brought by the Court against Petitioner ordering her
to pay Ryal’s attorney fees for every motion Petitioner filed with the court at the
same time it refused to hold her timely requested family law code sec. 2030 hearing.
The Court of appeals reversed July 10, 2018 order - See G055626

9

shown to be justified. .

“the record herein not only sustains . . in that regard, but

goes further, in that it unmistakably appears that such findings is contrary to the
evidence. . .and cannot sustain the order.”]
On April 19, 2019 and April 26, 2019, Petitioner attempted to vacate the
court’s orders changing exclusive possession and the writ of possession while forced
to proceed pro se because the trial court refused to hold Petitioner’s timely
requested family law code sec. 2030 hearing, the Court refused4 to vacate its orders.
(Appendix B and C)
Petitioner timely filed an appeal on May 29, 2019. The Court of Appeals
affirmed the court’s orders without a merits decision on Petitioner’s claims saying
that it determined these issues in her prior appeal but that is not true and in fact
the prior appeal the court stated that her arguments were premature and you can
find not one word addressing her due process and equal protection of the law
violations. The Court of Appeals stated that Petitioner’s substantial rights were not
violated by eviction and that decision conflicts with this Court’s decision in Green v.
Lindsay supra, 456 U.S. 444 ("Green") this Court stated "By failing to afford

4 See AOB page 20. See RT Vol. 1 page 20 line 20- 26. See also Court Order at Vol. 3 P. 814 (1. April
19, 2019 Minute Order) Denying Motion to Vacate Court's Sua Sponte Order for Writ of Possession
filed on February 21, 2019 found at Clerk's Transcripts Vol. 1 page 78-106; AOB at p 31, 42; 2/21/19
Motion to Vacate, Recall, or Quash Court's Sua Sponte Order for Writ Vol. I p. 78, 171, 261;Vol. 2 p.
396; See Court Order at Vol. 3 p. 815 to 816 (2. April 26, 2019 Minute Order) Denying Motion to
Vacate Court's Sua Sponte Order Changing Exclusive Possession filed on March 11, 2019 p. Vol. 1 p.
291 to Vol. 2 p. 374;AOB atpp. 29, 30, 31, 34, 35,36,37,38,39,40,41,46,47,52,58, 59,60,62,64,69; See
3/11/19 Motion to Vacate and or Set Aside Exclusive Possession at Vol. I p. 291 and Vol. 2 p. 301,432;
November 9, 2018 Order Changing ExclusivePossession Vol. 2 p. 371.) [Note: Order changing
Exclusive Possession reflects a Motion that never took place. See Exhibit A Objection]; and (3.
Denying Motion to Quash Writ of Possession Issued February 28, 2019 at Vol. 1 starting on p. 148.
See AOB at p. 29, 30; See Also 3/13/19 Ex Parte Motion to Quash Writ Issued 2/28/19; Vol. I at p
148;Vol. 2 p. 409 and 3/13/19 Motion for Order to Quash Writ and Notice to Vacate Vol. I p 160
and Vol. 2 p. 421.

10

adequate notice of the proceedings before issuing final orders of eviction, the State
deprived them of property without due process of law required by the Fourteenth
Amendment." This Court went on to state that eviction is a "significant interest in
property, and indeed, of the right to continued residence ..." And that the
"sufficiency of the notice must be tested with reference to its ability to inform" of the
pendency of proceedings that affect their interests. Pp. 450-451. Green u. Lindsey,
supra, 456 US 444, holding that those orders would be in violation of due process
and equal protection of the law. (Appendix A)
Petitioner’s requested a rehearing with the Court of Appeals but was denied
rehearing. (Appendix D)
Petitioner petitions the California Supreme Court for review of the Court of
Appeals decision. The petition for review was denied on November 18, 2020.
(Appendix E)
The Family Law Court’s orders and Court of Appeal’s Opinion conflicts with
the due process clause to the Fourteenth Amendment to the Constitution. The
Supreme Court stated in Isbell v. County of Sonoma (1978) 21 Cal.3d 61 holding: "It
is settled constitutional law that "in every case involving a deprivation of property
within the purview of the due process clause, the Constitution requires some form of
notice and a hearing"]. The Supreme Court of California stated in Payne v. Superior
Court, (1976) 17 Cal. 3d 908 ("Payne"), that "Few liberties in America have been
more zealously guarded than the rights to protect one's property in a court of law.
This nation has long realized that none of our freedoms would be secure if any

11

person could be deprived of his possessions without an opportunity to defend them
'at a meaningful time and a meaningful manner.'" The Fourteenth Amendment to
the United States Constitution prohibits a state from depriving any person of
property or their substantial rights without due process of law. This mandate has
been interpreted to require, at a minimum, that "absent a countervailing state
interest of overriding significance, a person forced to settle their claims of right and
duty through the judicial process must be given a meaningful opportunity to be
heard." Payne at p. 914. In Green v. Lindsay, supra, 456 U.S. 444, this Court stated
"By failing to afford adequate notice of the proceedings before issuing final orders of
eviction, the State deprived them of property without due process of law required by
the Fourteenth Amendment." This Court went on to state that eviction is a
"significant interest in property, and indeed, of the right to continued residence ..."
And that the "sufficiency of the notice must be tested with reference to its ability to
inform" of the pendency of proceedings that affect their interests. Pp. 450-451.
Green v. Lindsey, supra, 456 US 444, holding that those orders would be
in violation of due process and equal protection of the law. See also Isbell v. County
of Sonoma, supra, 21 Cal. 3d 61, 72 citing Osmond v. Spence (1972) 359 F. Supp.
124, 127 explaining that "unless the validity .. is determined before the judgment is
entered an alleged [party] will be deprived of his due process rights on every
occasion when an effective waiver [or judgment] has not occurred" citing Supreme
Court cases in support of "notice and a hearing on the merits" Boddie v.
Connecticut, 401 U.S.371,91 S.Ct. 780, 28 L.Ed.2d 113 (1971); Sniadach v. Family

12

Finance Corp., 395 U.S. 337, 89 S.CT. 1820, 23 L.ED.2d 349 (1969); and Mullane u.
Central Hanover Trust Co., 339 U.S. 306, 70 S. Ct. 652, 94 L.Ed. 865
Petitioner, Alicia Marie Richards respectfully prays that a Writ of Certiorari
issue to review the trial court orders and the Opinion of the Court of Appeals,
Fourth Appellate District, Division Three. (Appendix A, B, and C).
REASONS FOR GRANTING OF THE WRIT
This Court should grant review of the Family Law Court’s Orders and the
Court of Appeal’s decision dated October 6, 2020 for compelling reasons. The state
court’s decision conflicts with relevant decisions of this Court and the statutory law
of taking a person’s property is arbitrary, too broad and discriminatory under
Dusenbery v. United States, 534 U.S. 161 (2002) and void under Logan v.
Zimmerman, supra, 455 U.S. at 436, 102 S.Ct at 1158.
United States Courts entered incompatible decisions on the application of
California enforcement statutes under Civil Code of Procedure § 128, 128.5 and
Family Law Code §§ 290 and 291. It has used California Statutes in a way that
violates the California Constitution and calls for an exercise of this Court’s
supervisory power to settle whether the application of Civil Code of Procedure §
128, 128.5 and Family Law Code §§ 290 and 291 are proper without affording due
process and equal protection of the law. And any sanctions against a pro se litigant
who requested a family law code §2030 hearing before the taking of her property to
ensure equal rights and to have her claims adjudicated under family law code

13

§2120-2129 is proper under Civil Code of Procedure Section 128.5 in light of Logan
v. Zimmerman, supra, 455 U.S. at 436, 102 S.Ct. at 1158.
This Court recognizes that it is a fundamental right to notice and a right to
be heard at a meaningful time and place within the meaning of the Due Process
Clause to the Fourteenth Amendment before being deprived of a property interest,
but it is declined to arbitrary government action in California courts by application
of the controversial, broadly defined and unrestrained statutory enforcement and
sanction laws; In this Court supervisory powers is to review and protect this
essential rights to all individuals, including Petitioner to this Court.
The lower’s court’s actions were arbitrary and capricious resulting in a
miscarriage of justice and deprived Petitioner of her property rights and continued
residence in her property without due process and equal protection of the law in
violation of the Fourteenth Amendment to the Constitution. A person’s right
through the judicial process must be afforded a meaningful opportunity to be heard
and have their claims adjudicated according to due process of law. See Boddie v.
Connecticut, supra, 401 U.S.371,377. See also Sabariego u. Maverick (1988) 124
U.S. 261 [60 S. Ct. 343] [Held: “A judgment of a court without hearing the party or
giving him an opportunity to be heard is not a judicial determinate of his right and
is not entitled to respect in any other tribunal.”] Isbell v. County of Sonoma , supra
21 Cal.3d 61 [Held: it is settled Constitutional Law that 'in every case involving a
deprivation of property within the purview of the due process clause, the
Constitution requires some form of notice and a hearing”] See also In re marriage of

14

Shimkus, (2016) 244 Cal.App. 4th 1262, 1271. This Court should grant review of
the Court of Appeal’s October 6, 2020 Opinion for purposes of clarifying enforcement
and sanctions statutes and to order the lower courts to follow United States
Supreme Court precedent. The Supreme Court stated that: “Such procedure cannot
be sustained. By it the plaintiff was denied the fair trial in open court to which she
was entitled; she was deprived of the right to produce and have consideration given
to material evidence; she was precluded from cross examination of adverse
witnesses; and the order rests upon no evidentiary foundation whatsoever. Such
errors require a reversal of the order. See Arizona v. Fulminante (1991) 499 U.S.
279, 309-310, 111 S.Ct. 1246, 113 L.Ed. 2d 302. Also Lamps Plus, Inc. v. Varela,
supra, 139 S.CT. 1407 1417-1419 [Structural errors occur when a party's right to
due process has been violated by denying them a fair hearing.] See also Fewel v.
Fewel, supra, 23 Cal.2d 431 [right to call witnesses and have evidence considered].
In In re Robert G. 31 Cal. 3d 437, 442 (1982) states: "[D]ue process
requires . . . adequate notice of the charge so that he may intelligently prepare a
defense." Compliance with this requirement has been held "by the Supreme Court
to mandate ... [a party] be notified, in writing, of the specific charge or factual
allegations to be considered at the hearing, and that such written notice be given at
the earliest practicable time, and in any event sufficiently in advance of the hearing
to permit preparation." Id p.442. In Dusenbery v. United States, supra, 534 U.S.
161, the court stated that "the Due Process Clause of the Fifth Amendment
prohibits the United States, as the Due Process Clause of the Fourteenth
Amendment prohibits

15

the States, from depriving any person without "due process of law." This Court
"determined that individual whose property interests are at stake are entitled to
'notice and an opportunity to be heard.'" Citing United States v. James Daniel Good
Real Property, 510 U.S. 43,48 (1993). This Court has regularly turned to Mullane v.
Central Hannover Bank, supra, 339 U.S. 306, 313-315 [94 L.Ed. 865,872-874, 70
S.Ct. 652] holding that "It is fundamental to the concept of due process that a
defendant be given notice of the existence of [an action] and notice of the specific
relief which is sought..." when confronted with adequacy of the method used to give
notice. See also In re Marriage of Carlsson (2008) 163 Cal.App.4th 281,291
[Re: "Denying a party the right to testify or to offer evidence is reversible per se."] By
this Court granting this writ would settle the above important questions
and conflicting opinions issued by the Fourth Appellate District, Division Three
departing from the accepted and usual course of judicial proceedings calling for an
exercise of this Court's supervisory power to bring back conformity to the justice
system resulting in a miscarriage of justice and irreparable harm to Petitioner
depriving Petitioner of substantial property rights and continued residence in her
home without due process and equal protection of the law in violation of the 14th
Amendment to the Constitution. In Green v. Lindsay, supra, 456 U.S. 444[Holding;
holding that those orders would be in violation of due process and equal protection of
the law]; See also Haygood v. Younger, supra, 769 F.2d 1350 (9th Cir.) [Held:
“where the injury is the product of the operation of state law, regulation, or
institutionalized practice, it is neither random or unauthorized, but wholly

16

predictable, authorized, and within the power of the state to control. In such cases,
the state may not take away the protected interest without a hearing in advance of
the injury.” (Underlining added) citing Supreme Court Logan v. Zimmerman,
supra, 455 U.S. at 436. “The state, in Logan, had destroyed the plaintiffs property
interest in employment by failing to convene a hearing within the time mandated
by the same statute that had created the interest. The Supreme Court noted that
Logan was not challenging the commission’s error, but was challenging the
established state procedure itself which destroyed his rights without giving him an
opportunity to be heard.” Just as in this case, the state destroyed Petitioner’s
property interests and continued residence in her property by failing to convene a
hearing on her timely requested family law code § 2030 hearing within the time
mandated by statute and make the required findings to ensure equal rights and
adjudicating her claims pursuant to family law code sec. 2120 through 2129 by
those same statutes that had created the interest depriving Petitioner of due
process and equal protection of the law and all the appeals to take Petitioner’s
property by enforcing a judgment that should be considered void still pending
adjudication in the family law court and happened after the injury when the court
denied Petitioner property interest to be equally represented and have her claims
adjudicated in violation of Supreme Court precedent. (Id.)
Petitioner, Alicia Marie Richards respectfully requests that the Court grant
certiorari to review the trial court's orders and Court of Appeals, Fourth Appellate

17

District, Division Three's Opinion in order to resolve these important constitutional
questions.
ARGUMENT
California courts have the power to compel obedience to its judgments, orders
and process under Civil Code of Procedure § 128. “This statute has codified the
principle of‘[t]he inherent power of the trial court to exercise reasonable control
over litigation before it, as well as the inherent and equitable power to achieve
justice and prevent misuse of processes lawfully issued. . . ‘ [Citation”] citing
Blueberry Properties, LLC v. Chow (2014) 230 Cal.App.4th 1017, 1021, 179 Cal.Rptr.
3d 145. The question here is did the court’s order evicting Petitioner and her
children out of their property without notice, and opportunity to respond at a
meaningful time and meaningful place with the assistance of counsel to protect
Petitioner’s property rights and continued residence in her home achieve justice?
while the other party sits in an attitude of contempt by refusing to comply with the
lawful orders of the court to pay child support and alimony or any of the mortgage
payments in furtherance of his scheme to deprive Petitioner of her fair share of the
community estate and at the same time her due process rights had already been
violated when the family law court refused to hold Petitioner’s timely requested
family law code sec. 2030 hearing depriving her of counsel and all the injury
occurred after Petitioner’s due process and equal protection of the law rights were
violated when the court refused to follow procedural due process taking away
Petitioner’s protected interest to be equally represented and have her claims

18

adjudicated pursuant to the family law code statutes [2120 through 2129] in
violation of Haygood v. Younger, supra, 769 F.2d 1350 (9th Cir.) [Held: “where the
injury is the product of the operation of state law, regulation, or institutionalized
practice, it is neither random or unauthorized, but wholly predictable, authorized,
and within the power of the state to control. In such cases, the state may not take
away the protected interest without a hearing in advance of the injury.”
(Underlining added) citing Supreme Court Logan v. Zimmerman, supra, 455 U.S.
at 436, 102 S.Ct. at 1158. “The state, in Logan, had destroyed the plaintiffs
property interest in employment by failing to convene a hearing within the time
mandated by the same statute that had created the interest. The Supreme Court
noted that Logan was not challenging the commission’s error, but was challenging
the established state procedure itself which destroyed his rights without giving
him an opportunity to be heard.”
After notice and a reasonable opportunity to respond, the court may impose
an appropriate sanction upon the party for an action or tactic described in
subdivision (a)5 and shall be separately from other motions and shall describe the
specific alleged action or tactic made in bad faith that is frivolous or solely intended
to cause unnecessary delay. Civil Code of Procedure Section 128.5. As in this case,

5 "(a) A trial court may order a party, the party's attorney, or both, to pay the
reasonable expenses, including attorney's fees, incurred by another party as a result
of actions or tactics, made in bad faith, that are frivolous or solely intended to cause
unnecessary delay. This section also applies to judicial arbitration proceedings
under Chapter 2.5 (commencing with Section 1141.10 ) of Title 3 of Part 3.”

19

there was no notice, no hearing, and no opportunity to oppose with counsel and the
court failed to follow the statute.
A judgment or order made or entered pursuant family law code § 290 may be
enforced by the court by execution, the appointment of a receiver, or contempt, or by
any other order as the court in its discretion determines from time to time to be
necessary. The family law Court enforcing a [stipulated] judgment that has yet to
be adjudicated and should be considered void on its face is violates Petitioner’s due
process and equal protection rights depriving her of her substantial property
interests and continued residence.
A judgment for possession or sale of property that is made or entered
under family law code §291 is enforceable until paid or satisfied. The family law
Court enforcing a [stipulated] judgment that has yet to be adjudicated and should
be considered void on its face is violates Petitioner’s due process and equal
protection rights depriving her of her substantial property interests and continued
residence.
The family law court’s change of possession order signed on November 9,
2018 without notice, a hearing and an opportunity to oppose at a meaningful time
and manner and the writ of possession issued on 2/28/20 enforcing that order to
change exclusive possession of the family home and evict Petitioner and her
children out of their lawfully owned property deprives Petitioner of a substantial
property interest and continued residence in her home without due process and
equal protection of the law. See Sabariego v. Maverick, supra, 124 U.S. 261 p. 293

20

(1888) [Held: A judgment of a court without hearing the party or "or giving him an
opportunity to be heard, is not a judicial determination of his rights, and is not
entitled to respect in any other tribunal. ..." See also Supreme Court precedent Gray
v. Hall, 203 Cal. 306 (Cal. 1928) [void and voidable judgments made without
jurisdiction.]
Petitioner, Alicia Marie Richards respectfully prays that a Writ of Certiorari
issue to review the trial court orders and the Opinion of the Court of Appeals,
Fourth Appellate District, Division Three. (Appendix A, B, and C).
Application of Civil Code of Procedure Section 128,128.5 and Family Law
Code 290 and 291 are too Broad and Arbitrarily Applied in Violation of the
Due Process Clause to the Fourteenths Amendment to the United States
Constitution and Should be Declared Unconstitutional

Given a determination as to the governing jurisdiction, a court is “bound” to
follow a precedent of that jurisdiction. If the question of due process and equal
protection of the law resolved in the precedent case is the same as it to be resolved
in Petitioner’s case, the Court of Appeals was to follow Court precedent. Auto Equity
Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450, where the State Supreme Court
case instructing lower courts to follow previous decisions and respect precedence so
that consistent principles applied to similar facts yield similar outcomes. Under
California Rules of Court, rule 5.440 “court should identify cases related to a
pending family law case to avoid issuing conflicting orders. . .” The decisions of the
lower courts are in conflict with the principles governing court orders. If a party is

21

entitled to due process and equal protection of the law in one case on appeal then
Petitioner is entitled to due process and equal protection of the law.
The Court of Appeals decision’s application of Civil Code of Procedure Section
128(a)(4) conflicts with the due process clause to the Fourteenth Amendment to the
Constitution and application of Civil Code of Procedure § 128, 128.5 and Family
Law Code §§ 290 and 291 are too broad and unconstitutionally applied if it denies a
party notice, a hearing and a meaningful opportunity to oppose. And if an appeal is
afforded, the State must not so structure it as to arbitrarily deny to some persons
those rights or privileges under state law and deprive those persons due process to
the Fourteenth Amendment the same privileges available to all citizens to the
United States of America. See Lindsey v. iVormet, 405 U.S. 56 @ 67(1972) [“Due
process requires that there be an opportunity to present every available defense.”
Citing American Surety Co. v. Baldwin 287 U.S 156 168 (1932) see also Nickey v.
Mississippi, 292 U.S. 393, 396 (1934).
Civil Code of Procedure § 128, 128.5 and Family Law Code §§ 290 and 291 if
it allows the state court to apply it sua sponte violates the due process clause to the
Fourteenth Amendment and is contrary to court precedent in violation of the equal
protection clause of the federal Constitution (U.S. Const. Amend XIV § 1) and the
provisions of the state Constitution against special laws (Art. I, § 21). And further
is in conflict with procedural due process to give notice of the ground and evidence
that would support the ground, an opportunity to respond and an opportunity to be
heard with an opportunity to be represented with counsel (family law code sec.

22

2030) to ensure Petitioner’s property rights are protected in the family law court
against Ryal who is represented by counsel. See Dusenbery v. United States, supra,
523 U.S. 161 [Due Process Clause of the Fourteenth Amendment prohibits the
States, from depriving any person without "due process of law."]
Civil Code of Procedure § 128, and Family Law Code §§ 290 and 291 should
be declared unconstitutional to be applied without due process and equal protection
of the law in violation of the Fourteenth Amendment to the Constitution and are
very broad and inconsistent with the statutory right to notice, a right to be heard
and an opportunity to oppose. See Boddie v. Connecticut,, supra, 401 U.S. 371;
Sniadach v. Family Finance Corp., supra, 395 U.S. 337, 89 S.CT. 1820, 23 L.ED.2d
349; and Mullane v. Central Hanover Trust Co., supra, 339 U.S. 306, 70 S. Ct. 652,
94 L.Ed. 865
The statutory law Civil Code of Procedure § 128, 128.5 and Family Law Code
§§ 290 and 291 allowing the taking of a person’s property arbitrary, too broad and
discriminatory and inconsistent with Dusenbery v. United States, supra, 534 U.S.
161 and void under Logan v. Zimmerman, supra, 455 U.S. at 436, 102 S.Ct at 1158
where the state court failed to follow its own procedural due process by failing to
hold Petitioner’s timely requested family law code § 2030 hearing and adjudicate
her tort claims pursuant to family law code § 2120 through 2129 and taking away a
property interest without due process of law.
The Civil Code of Procedure § 128, 128.5 and Family Law Code §§ 290 and
291statutes are too broad to allow courts with inherent power and

23

unconstitutionally applied without affording litigants due process and equal
protection of the law and are so vague that they fails to meet the constitutionality
requirement of certainty. Section 128(a)(4) provides

. .the trial court to exercise

reasonable control over litigation before it, as well as the inherent and equitable
power to achieve justice and prevent misuse of processes lawfully issued . .,”
arguing that the words “reasonable control over litigation before it” are fatally
uncertain and its vague rule of Civil Code of Procedure § 128(a)(4) is open to a wide
interpretation by the courts, and it is arbitrarily applied to any litigant in California
courts, as shown herein.
Civil Code of Procedure 128.5 "If, after notice and a reasonable opportunity to
respond, the court issues an order pursuant to subdivision (a), the court may,
subject to the conditions stated below, impose an appropriate sanction upon the
party, the party's attorney, or both, for an action or tactic described in subdivision
(a). In determining what sections, if any, should be ordered, the court shall consider
whether a party seeking sanctions has exercised due diligence” has been incorrectly
applied to conform to due process and equal protection of the law. In arguing the
words “an appropriate sanction upon the party, the party’s attorney, or both” are
fatally uncertain and its vague rule is open to a wide interpretation by the courts,
and it is arbitrarily applied to any litigant in California courts, as shown herein.
Family law Code §290 states: “A judgment or order made or entered pursuant
to this code may be enforced by the court by execution, the appointment of a
receiver, or contempt, or by any other order as the court in its discretion determines

24

from time to time to be necessary” arguing the words “by any other order as the
court in its discretion determines from time to time to be necessary” are fatally
uncertain and its vague rule of Family Law Code §290 is open to a wide
interpretation by the courts, and it is arbitrarily applied to any litigant in California
courts, as shown herein.
Family Law Code § 291 states: “(a). .. judgment for possession or sale of
property that is made or entered under this code, including a judgment for child.
family, or spousal support, is enforceable until paid in full or otherwise satisfied”
arguing the word “enforceable” is fatally uncertain and its vague rule of Family Law
Code §291 is open to a wide interpretation by the courts, and it is arbitrarily applied
to any litigant in California courts, as shown herein.
The classification of the group of litigants under Civil Code of Procedure
§128, 128.5 and Family Law Code § 290 and 291 are too broad and open to a
judiciary discretion to proclaim that the state court has authority over and above
the Constitution’s due process clause and contrary to court precedent. See Boddie v.
Connecticut, supra, 401 U.S. 371
Petitioner, Alicia Marie Richards respectfully prays that a Writ of Certiorari
issue to review the trial court orders and the Opinion of the Court of Appeals,
Fourth Appellate District, Division Three. (Appendix A, B, and C).
Civil Code of Procedure Section 128, 128.5 and Family Law Code §290 and
§291 are Impermissibly Vague and Overbroad and Violates Due Process
The definition of the court’s authority under Civ. Code of Proc. Section 128,
128.5 and family law code §§ 290 and 291 are impermissibly vague and overbroad

25

that it does not put a person on notice of what constitutes abuse. In NAACP v.
Button, 371 U.S. 415, 432-33 (1963) “The danger is tolerating, in the area of First
Amendment freedoms, the existence of a penal statute susceptible of sweeping and
improper application. The threat of sanctions may deter their exercise almost as
potently as the actual application of sanctions. Because First Amendment,
government may regulate in the area only with narrow specificity” if the statue
turns on a subjective interpretation, it is more likely to be declared impermissibly
vague. See Coates v. City of Cincinnati, 402 U.S. 611, 616, (1971) finding as
unconstitutionally vague a statute that turned on a subjective standard of
“annoyance”. Civil Code of Procedure Sec. 128, 128.5 and family law code sec. 290
and 219 are challenged, that they specifically violate Due Process, and they are
overbroad. These impermissibly vague laws that the State has a right to deprive a
party their right to a notice, a hearing and an opportunity to oppose are without
doubt unconstitutional.
As in this case, the State’s authority under Civil Code of Procedure § 128,
128.5 and family law code sec. 290 and 291 allowing it to take away a party’s
substantial property rights and continued residence in their home without due
process must be circumscribed, not global, and narrowly focus on the issues.
In this instance, Civil Code of Procedure § 128, 128.5 and family law code sec.
290 and 291 are the key to deny the right to notice, a hearing, an opportunity to be
heard at a reasonable time and warrants reversal or change in decision.

26

Under US Constitution Amendment VIII there is: “no excessive bail shall not
be required nor excessive fines imposed, nor cruel and unusual punishment
inflicted.” The family law court’s order evicting Petitioner without due process and
equal protection of the law is cruel and unusual punishment and violates the due
process clause to the Fourteenth Amendment to the Constitution.
“The words “due process of law” in the Fourteenth Amendment of the
Constitution of the United States do not necessarily require an indictment by a
grand jury in a prosecution by a State for murder”. In Twining v. New Jersey, 211
U.S. 78, 101 (1908) “The words due process of law were intended to secure the
individuals like Petitioner from the arbitrary exercise of the powers of government,
unrestrained by the established principles of private rights and distributive justice.”
See also Anderson Natl, Bank v. Luckett, 321 U.S. 233, 244 (1944).
A State “is free to regulate procedure of its courts in accordance with it own
conception of policy and fairness unless in so doing it offends a principle of justice so
rooted in the traditions and conscience of our people as to be ranked as
fundamental.” Snyder v. Massachusetts, 291 U.S. 97, 105 (1934); West u. Louisiana
194 U.S. 258, 263 (1904); Chicago, B&Q R.R. v. Chicago, 166 U.S. 266 (1987);
Jordan v. Massachusetts, 225 U.S. 167, 176 (1912). See also Boddie v. Connecticut,
supra, 401 U.S. 371. But, at least in those situations in which the State has
monopolized the avenues of settlement of disputes between persons by prescribing
judicial resolution, and where the dispute involves such a fundamental interest as
property and continued residence in a home, no State may deny to those persons

27

due process of law. Boddie v. Connecticut, supra, 401 U.S. 371 denying rights to
due process and equal protection of the law by broad and very vague Civil Code of
Procedure statutes §128 and §128.5 and family law code sec. statutes 290 and 291
and are unconstitutional.
There’s a second privilege and immunities clause found in the Fourteenth
Amendment to the Constitution. This clause states: “No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United
States. Definitely Civil Code of Procedure § 128, § 128.5 and family law code sec.
290 and 291 are those laws. Under 42 U.S.C. § 1983 (1994) “Every person who
under color of any statute. . . of any state. . . subjects or causes to be subjected any
citizen . . . the deprivation of any rights, privileges or immunities secured by the
Constitution and laws, shall be liable to the party injured. . .” Because, the rights of
life, liberty, and property (which includes all civil rights that men have) are
protected by the Fourteenth Amendment can’t be denied by the State to any persons
by statutory laws. As we see in this case, Civil Code of Procedure Sec. 128, 128.5
and family law code sec. 290 and 291 are the laws in question and cannot be
sustained by any grant of legislative power made to Congress if they violate the
Constitution. United States v. Harris, 106 U.S. 629. Petitioner has been denied
under color of authority her rights under state law [family law code sec. 2030 and
2120 through 2129] and has been subjected to the arbitrarily taking of her property
in violation of the United States Constitution and cannot enforce those rights

28

[family law code sec. 2030 and 2120 through 2129] because she is being
discriminated by the state court because she is a pro se litigant who is a woman.
Civil Code of Procedure Sec. 128, 128.5 and family law code sec. 290 and 291
brings purposeful discrimination, that discriminate between citizens based on
deprivation of equal rights to due process and involve fundamental procedural due
process rights to notice, a hearing and an opportunity to be heard and 128.5
incorrectly applied because it clearly states that notice must be given.
Civil Code of Procedure sec. 128, 128.5 and family law code sec. 290 and 291
are too vague and the courts are abusing their authority by not following procedural
due process and the statute’s sua sponte application is violative of the Constitutions’
due process clause to the Fourteenth Amendment.
Therefore, the laws in question, without any reference to adverse State
legislation on the subject, declares that all person shall be entitled to equal
protection under the law and it supersedes and displaces State legislation on the
same subject.
CONCLUSION
Civil Code of Procedure § 128, 128.5 and family law code sec. 290 and 291
deprives Petitioner her right to due process and equal protection of the law. The
Constitution protects the rights of every citizen against discriminative and unjust
laws of the State by prohibiting such laws. The State must not so structure it as to
arbitrarily deny to one person or group of litigants the rights or privileges available
to others. This denial of rights for which the State alone is responsible is the great

29

seminal and fundamental wrong. The coercive remedy to be provided must
necessarily be predicated upon that wrong. It must assume that in the cases
provided for the evil or wrong actually committed rests upon State law or State
authority for its excuse and perpetration.
All of Petitioner’s federally couched claims brought in the lower courts were
ignored by the state courts resulting in a denial of Petitioner’s federally protected
rights and in violation of United States Supreme Court precedent. In other words,
the state courts abused the issue of comedy and failed to recognize the Supremacy
Clause of the United State Constitution and for the reasons set forth in this
petition, Petitioner respectfully urges this Court to grant Certiorari to ensure
certainty and consistency in the application of laws by California State under the
United States Constitution.
For the foregoing reasons, Petitioner respectfully requests the United
States Supreme Court grant Petition for Writ of Certiorari.
Dated: April 15, 2021

Respectfully submitted,

Alicia Marie Richards

30

